No.

In The Supreme Court of the United States
JUAN LUIS RIVERA ARREOLA, PETITIONER
V.

UNITED STATES OF AMERICA
_________
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

___________
PETITION FOR A WRIT OF CERTIORARI

___________
in forma pauperis
_____________

DON BAILEY
ATTORNEY FOR PETITIONER
309 N. WILLOW
SHERMAN, TEXAS 75090
(903) 892-9185

1

QUESTION PRESENTED

In order to warrant a two-level enhancement for possession of a firearm,
pursuant to U.S.S.G. § 2D1.1(b)(1), is it sufficient to simply label firearms as
“tools of the trade” which allows for an inference of possession when possessed by
a co-defendant, as is the rule in the Fifth Circuit, or must there be reasonable
foreseeability as required by the Sixth, Eight, Ninth, Eleventh and D.C. Circuits?

2

TABLE OF CONTENTS
Opinion below ...……………………………………………
5
Jurisdiction …………………………………………………… 6
Statutory provisions involved ………………………………
6
Statement of the Case ……………………………………….. 6
Reasons for granting the petition …………………………..… 10
Conclusion…………………..………………………………… 15
Appendix………………………………………………………. 16

TABLE OF AUTHORITIES
Cases:

United States v. Aguilera-Zapata, 901 F.2d. 1209 (5th Cir. 1990)

10-11

United States v. Borelli, 336 F.2d 376 (2d Cir.1964)

14

United States v. Catalan, 499 F.3d 604 (6th Cir.2007)

13

United States v. Childress, 58 F.3d 693 (D.C.Cir.1995)

14

United States v. Claxton, 276 F.3d 420 (8th Cir. 2002)

12

United States v. Cochran, 14 F.3d 1128 (6th Cir. 1994)

13

United States v. Gallo, 195 F.3d 1278 (11th Cir. 1999)

14

United States v. Highsmith, 268 F.3d 1141 (9th Cir.2001)

12

United States v. Hooten, 942 F.3d 878 (5th Cir. 1991)

11
3

United States v. Lopez, 384 F.3d 937 (8th Cir. 2004)

12

United States v. Rivera Arreola, 4:17cr176(5) (E.D. Tex. 2020)

5

United States v. Rivera Arreola, 831 Fed.Appx. 690 (5th Cir. 2020)

6

United States v. Saro, 24 F.3d 283 (D.C.Cir. 1994)

14

United States v. Tabron, 437 F.3d 63 (D.C. Cir. 2006)

13

United States v. Woods, 604 F.3d 686 (6th Cir. 2010)

13

United States v. Zapata-Lara, 615 F.3d 388 (5th Cir. 2010)

10-11

Studies from Bureau of Justice Statistics
Firearm Use by Offenders (Harlow 2002)
https://bjs.gov/content/pub/pdf/fuo.pdf

12

Source and Use of Firearms Involved in Crimes,
Survey of Prison Inmates, 2016 (Alper and Glaze 2019)
https://www.bjs.gov/content/pub/pdf/suficspi16.pdf

13

4

No.

In The Supreme Court of the United States
JUAN LUIS RIVERA ARREOLA, PETITIONER
V.

UNITED STATES OF AMERICA
_________
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

___________
PETITION FOR A WRIT OF CERTIORARI
____________

Don Bailey, on behalf of Juan Luis Rivera Arreola, respectfully petitions for
a writ of certiorari to review the judgment of the United States Court of Appeals
for the Fifth Circuit in this case.
OPINION BELOW
The opinion of the United States Court of Appeals for the Fifth Circuit (Pet.
App. 2) is reported at United States v. Rivera Arreola, 831 Fed. Appx. 690, 2020
WL 765848 (5th Cir. October 12, 2020). The United States District Court for the
Eastern District of Texas entered a Judgment, sentencing Mr. Rivera Arreola to

5

360 months. United States v. Rivera Arreola, 4:17cr176(5) (E.D.TX February 26,
2020) (Pet. App. 1).
JURISDICTION
The judgment of the court of appeals was entered on October 12, 2020.1 The
jurisdiction of this Court rests on 28 U.S.C. 1254(1). The United States Court of
Appeals for the Fifth Circuit had jurisdiction pursuant to 28 U.S.C. § 1291.
This appeal is submitted pursuant to Supreme Court rule 10(a) in that the
underlying decision by the Fifth Circuit conflicts with the Sixth, Eighth, Ninth,
Eleventh and D.C. Circuits regarding an important matter.
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Due Process Clause of the Fifth Amendment.
STATEMENT OF THE CASE
Mr. Arreola was in the business of brokering drug transactions over the
phone from his home in South Texas. Agent Richard Martinez, of the Drug
Enforcement Agency (DEA), received information from a BOP prisoner named
Maxon Morgan regarding an individual who was trafficking drugs who had been
housed with him at LaTuna FCI. Agent Martinez went to West Virginia and
interviewed Mr. Morgan regarding his information about a person known as
“Michi.” After the individual was identified as Mr. Arreola, Agent Martinez
1

In accordance with emergency COVID rules of the Supreme Court, this petition is submitted within the 150 days
allowed.

6

employed a DEA informant named Jose Vasquez to see if a drug transaction could
be arranged with “Michi”, from Michoacan, Mexico. On September 21, 2017, Mr.
Arreola put Mr. Vasquez in touch with an individual in the Dallas area that could
deliver five kilograms of methamphetamine to Mr. Vasquez at a Lowes
Department Store in Lewisville, Texas. Mr. Arreola negotiated the price and
amounts with Mr. Vasquez. When the five kilograms was brought to Lewisville,
Officers pulled over the two people delivering the methamphetamine and seized
the drugs pursuant to a consent search. Mr. Vasquez then told Mr. Arreola that the
drugs had never arrived. (ROA.473-511, 1177-1212)
After the original transaction resulted in the seizure of five kilograms of
methamphetamine, Mr. Vasquez told Mr. Arreola that the drugs did not arrive and
he still needed methamphetamine. Mr. Arreola agreed the following day,
September 22, 2017, to deliver methamphetamine to a location in Grand Prairie,
Texas. The delivery person was to be a Mr. Ramirez-Benitez. The transaction was
originally to be for ten kilograms but Mr. Ramirez-Benitez only had eight
kilograms of methamphetamine. The subsequent stop resulted in the seizure of the
eight kilograms and $ 5,000 in cash. (ROA.580-605, 1435-1467)
After the Grand Prairie seizure, Agent Martinez switched informants to
Eberardo Mora, a convicted drug dealer who became an informant after his release
from his federal sentence. On December 12, 2017, Mr. Mora was able to

7

communicate with Mr. Arreola after intervention of Mr. Morgan from his prison in
West Virginia. Mr. Mora and Mr. Arreola had discussions about a
methamphetamine purchase of ten kilograms that was to be delivered at a Walmart
in Denton, Texas. The drugs were to be supplied by a supplier in Austin named
Jacob Duarte and delivered by Gerardo Zivieta-Torres. When Mr. Zivieta-Torres
arrived, the officers converged and arrested Mr. Zivieta-Torres. In the pickup
officers located the ten kilograms of methamphetamine and two firearms.
(ROA.606-643, 1502-1539)
There was no testimony that Mr. Arreola knew Mr. Zuvieta-Torres or that he
was carrying two firearms during the third delivery. Mr. Arreola had arranged the
transaction over the phone with Mr. Duarte, who Mr. Zuvieta-Torres worked for.
Mr. Zuvieta-Torres had been using drugs and started selling drugs when he was
seventeen. He was involved in receiving the methamphetamine from Mexico,
which was mixed with water and diesel and transported in diesel tanks on trucks.
The quantity would vary from 90 to 130 kilograms of cocaine after the product was
cooked off by Mr. Zuvieta-Torres. Mr. Zuvieta-Torres was working for Jacob
Duarte and deliveries would be from 10 to 100 kilograms of methamphetamine at a
time. On the third seizure brokered by Mr. Arreola on December 12, 2017, Mr.
Zuvieta-Torres was arrested in Denton, Texas delivering 10 kilograms of
methamphetamine from Austin, Texas. (ROA.932-952)

8

The pre-sentencing report imposed a two-level enhancement because a codefendant possessed a firearm during the December 10, 2017, delivery of ten
kilograms in Denton, Texas. (ROA.1761) Counsel objected to this enhancement
based upon that the previous two transactions did not involve a firearm and the
firearm was not foreseeable to Mr. Arreola given the chain of events. (ROA.17731774) The Government did not respond.
On February 25, 2020, Mr. Arreola appeared for sentencing before the
District Court. In addressing the issue of the objection, the Court stated that “it is
reasonably foreseeable for him to be held responsible for the courier in this case
that had the firearm, considering his position in this overall conspiracy.”
(ROA.1158) The objection was overruled. Mr. Arreola was sentenced to 360
months confinement.
The issue was appealed because there was no foreseeability and the Fifth
Circuit’s determination that firearms are “tools of the trade of those engaged in
drug activities” and a district court “may ordinarily infer that a defendant should
have foreseen a co-defendant’s possession of a dangerous weapon, such as a
firearm, if the government demonstrates that another participant knowingly
possessed the weapon while he and the defendant committed the offense by jointly
engaging in concerted criminal activity involving a quantity of narcotics sufficient

9

to support an inference of an intent to distribute”2 is contrary to the holdings of the
Sixth, Eighth, Ninth and D.C. Circuits which all apply the reasonably foreseeable
acts test.
The Fifth Circuit, in denying the appeal, stated that “one panel of this court
may not overrule another panel’s decision without en banc reconsideration or a
superseding contrary Supreme Court decision.”3 The appeal was denied based
upon the tools of the trade and inference because it was drug trafficking holding of
United States v. Aguilera-Zapata, 901 F.2d at1215-1216, regarding tools of the
trade and may ordinarily infer language set out above. See United States v. Rivera
Arreola, 2020 WL 765848.
REASONS FOR GRANTING THE PETITION
The Fifth Circuit has taken the approach that if a firearm is located in the
possession of a co-defendant, then it is reasonably foreseeable because if it
involves drugs, there will be firearms and thus the Court is free to infer possession
by anyone connected with the conspiracy. As noted by Trial Counsel in the
objections to the PSR, the Court of Appeals for the Fifth Circuit has addressed
reasonably foreseeable requirement in United States v. Zapata-Lara, 615 F.3d 388,
390 (5th Cir. 2010):

2

United States v. Zapata-Lara, 615 F.3d 388, 390 (5th Cir. 2010); citing United States v. Aguilara-Zapata, 901 F.3d
1209, 1215 (5th Cir. 1990)
3
United States v. Rivera Arreola, 2020 WL 765848 (5th Cir. October 12, 2020)

10

In Hooten, 942 F.2d at 881–82, 4 the district court applied § 2D1.1(b)(1)
where a handgun was found on the back porch of a residence near a shed in
which amphetamine was being manufactured. At sentencing, the defendant
claimed no knowledge that the handgun existed or that a gun was involved
in the offense. Id. at 881. Noting that the district court had failed to make a
finding regarding the defendant's objection, we remanded and instructed
the court to make an explicit finding as to whether the defendant personally
possessed the pistol, or, if a coconspirator possessed it, whether the
defendant reasonably could have foreseen that possession. Id. at 881–82.
In Aguilera–Zapata,5 we addressed the application of § 2D1.1(b)(1) in light
of the relevant-conduct provision of § 1B1.3(a)(1). We held that because
firearms are “tools of the trade of those engaged in illegal drug activities,”a
district court “may ordinarily infer that a defendant should have foreseen a
co-defendant's possession of a dangerous weapon, such as a firearm, if the
government demonstrates that another participant knowingly possessed the
weapon while he and the defendant committed the offense by jointly
engaging in concerted criminal activity involving a quantity of narcotics
sufficient to support an inference of an intent to distribute.” Aguilera–
Zapata, 901 F.2d at 1215.
United States v. Zapata-Lara, 615 F.3d 388, 390 (5th Cir. 2010).
While the Fifth Circuit’s approach may have its supporters based on what
they see on television, it is simply not true. According to the Bureau of Justice
Statistics only 18% of state offenders, and 15% of federal offenders for all crimes
possess a firearm in relation to any crime with most of those being violent crimes
or public disturbance crimes. When it is narrowed down to a drug related offense it
is only 8.1%.6

United States v. Hooten, 942 F.3d 878 (5th Cir. 1991)
United States v. Aguilera-Zapata, 901 F.2d. 1209 (5th Cir. 1990)
6
https://bjs.gov/content/pub/pdf/fuo.pdf
4

5

11

A more recent study, regarding figures from 2016, based upon increased
firearms emphasis, still found that only 12.9% of federal inmates who were
serving a sentence for drug trafficking had possession of a firearm.7 So, an
implication by the Fifth Circuit, or any other court, that firearms are simply tools
of the trade and thus an inference of a firearm, without more, demonstrates that the
myth does not reflect the reality. Firearms are the exception and not the rule in the
trade of drug traffickers and that is simply a fact the Court needs to recognize
because other Circuits certainly have.
The Eighth Circuit noted in United States v. Lopez, 384 F.3d 937 (8th Cir.
2004);
the Government argues that we can infer a defendant's knowledge based
solely on the nature of drug dealing. Cf. United States v. Claxton, 276 F.3d
420, 423 (8th Cir.2002) (acknowledging the close connection between
firearms and drugs). We disagree. Under the Guidelines, a two-level firearm
enhancement can only be applied if the Government shows that the
defendant knew or should have known based on specific past experiences
with the co-conspirator that the co-conspirator possessed a gun and used it
during drug deals. See United States v. Highsmith, 268 F.3d 1141, 1142 (9th
Cir.2001) (holding that the firearm enhancement was not applicable where
the defendant had access to the co-conspirator's weapon but did not know
that the weapon existed). To hold otherwise would unfairly penalize
defendants for conduct over which they have no control. Here the
Government failed to present any evidence showing that Lara knew or
should have known that Baccam possessed a firearm.
Id. at 940. Likewise, the Sixth Circuit found that a firearms presence at a site
where defendant had been, and methamphetamine was being manufactured, was
7

https://www.bjs.gov/content/pub/pdf/suficspi16.pdf
12

insufficient to demonstrate reasonable foreseeability. United States v. Woods, 604
F.3d 286 (6th Cir. 2010). As the Sixth Circuit noted;
To find that it was reasonably foreseeable that someone would possess a
firearm, the district court relied on an inference that if a drug conspiracy
involves a “substantial” amount of drugs, a defendant should foresee that a
co-conspirator is likely to possess firearms. Our cases “have explicitly
rejected ‘the fiction that a firearm's presence always will be foreseeable to
persons participating in illegal drug transactions.’ ” United States v.
Catalan, 499 F.3d 604, 607 (6th Cir.2007) (citing United States v.
Cochran, 14 F.3d 1128, 1133 (6th Cir. 1994). “[A]t a minimum, we require
that there be objective evidence that the defendant ... at least knew it was
reasonably probable that his coconspirator would be armed.” Cochran, 14
F.3d at 1133.
United States v. Woods, 604 F.3d at 291.
The United States Court of Appeals for the District of Columbia considered
a case where a defendant knew of the “Mahdi gang” and their violent propensity to
use guns in murders and assaults but argued he was not involved in their activities
and was a fringe operator within the conspiracy. United States v. Tabron, 437 F.3d
63 (D.C. Cir. 2006). What is interesting about Tabron is he had a Rule 11(c)(1)(C)
agreement for a sentence far below what was recommended with the enhancement 8
and the District Court recognized that it could avoid ruling on the issue by citing
Fed. R. Crim. P. 32(i)(3)(B) but went on and ruled on it anyway. Id. 437 F.3d at
316-17 In Tabron, the Court stated:

The plea agreement allowed for a sentence of 84-90 months and the lowest he could get
without the gun enhancement was 210 months. Id. 437 F.3d at 316
88

13

“the well-settled principle of conspiracy law that someone who jointly
undertakes a criminal activity with others is accountable for their reasonably
foreseeable conduct in furtherance of the joint undertaking.” United States v.
Saro, 24 F.3d 283, 288 (D.C.Cir.1994). In attributing co-conspirators' acts to
a criminal defendant, however, district courts must take great care: as Judge
Friendly observed, “[a]lthough it is usual and often necessary in conspiracy
cases for the agreement to be proved by inference from acts, the gist of the
offense remains the agreement, and it is therefore essential to determine
what kind of agreement or understanding existed as to each
defendant.” United States v. Borelli, 336 F.2d 376, 384 (2d Cir.1964). To
that end, we have established a “strict procedural mandate” that requires
district courts to make explicit findings as to the scope of a defendant's
conspiratorial agreement before holding him responsible for a coconspirator's reasonably foreseeable acts. United States v. Childress, 58 F.3d
693, 722 (D.C.Cir.1995) (per curiam). Absolute conformity with this
mandate is critical, else we risk holding defendants accountable for crimes
committed in furtherance of conspiracies they never joined.
Tabron, 437 F.3d at 318.
The Eleventh Circuit in United States v. Gallo, 195 F.3d 1278 (11th Cir.
1999), also requires a reasonable foreseeability test on firearm enhancements. The
Eleventh Circuit found that the proper analysis is a four part test requiring; (1) the
possessor of the firearm was a co-conspirator, (2) the possession was in furtherance
of the conspiracy, (3) the defendant was a member of the conspiracy at the time of
possession, and (4) the co-conspirator possession was reasonably foreseeable. The
Eleventh Circuit reasoned that the requirement for reasonable foreseeability was
mandated in 1994, when the Sentencing Commission expressly amended the
Guidelines to include the reasonable foreseeability requirement directly
in U.S.S.G. § 1B1.3(a)(1)(b). Id. at 1283-1284

14

Thus, under the fact-based determinations of the Sixth, Eighth, Ninth,
Eleventh and D.C. Courts of Appeals, Mr. Arreola could not be held to have
foreseen the presence of a firearm in the drug transaction. The record is silent as to
reasonable foreseeability and thus the "tools of the trade" standard of the Fifth
Circuit has no basis in law or fact and the Sixth, Eighth, Ninth, Eleventh and D.C.
Circuits standard of reasonable foreseeability test should prevail.

CONCLUSION
The Fifth Circuit "tools of the trade" standard for applying two-level
enhancements for possession of a firearm is clearly not based on factual reality or
the holdings of other circuits. The correct standard should be what is applied in the
Sixth, Eighth, Ninth, Eleventh and D.C. Circuits, which is the fact-based
reasonable foreseeability test. The Court should grant the writ of certiorari to
determine the correct standard.
Respectfully Submitted;

Don Bailey
~
Attorney for Mr. Rivera Arreola
TXSBN O1520480
309 N. Willow
Sherman, Texas 75090
903 -815-91881
Donbai ley46@hotmail.com

15

